U.S. Department of Justice
Office of the Solicitor General

Washington, D. C. 20530

January 31, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Nathan Van Buren v. United States, No. 19-783
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 18,
2019. The government's response is now due, after one extension, on February 18, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 10, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0783
VAN BUREN, NATHAN
USA

CLIFFORD W. BERLOW
JENER & BLOCK
353 NORTH CLARK STREET
CHICAGO, IL 60654-3456
312-840-7366
CBERLOW@JENNER.COM
ANDREW CROCKER
ELECTRONIC FRONTIER FOUNDATION
815 EDDY STREET
SAN FRANCISCO , CA 94109
415-436-9333
ANDREW@EFF ORG
JEFFREY L. FISHER
STANFORD LAW SCHOOL SUPREME COURT
CLiNIC
559 NATHAN ABBOTT WAY
STANFORD, CA 94305
650-724-7081
JLFISHER@STANFORD.EDU
REBECCA SHEPARD
FEDERAL DEFENDER PROGRAM
101 MARIETTA STREET, NW
SUITE 1500
ATLANTA, GA 30303
404-688-7530
REBECCA_SHEPARD@FD.ORG

SARALIENE SMITH DURRETT
SARALIENE SMITH DURRETT, LLC
1800 PEACHTREE STREET
SUITE 300
ATLANTA, GA 30309

